November 18, 2019

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543

VIA FEDERAL EXPRESS
AND ELECTRONIC FILING

Re: Mark Elster et al. v. The City of Seattle, No. 19-608
Dear Mr. Harris:
As provided by Rule 37(2)(a), Petitioners Mark Elster and Sarah Pynchon
grant blanket consent to the filing of amicus curiae briefs in support of either or
of neither party.
Sincerely,
/S/ Ethan W. Blevins
Counsel of Record for Petitioners
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
cc: Jeff Slayton, Jeff.Slayton@seattle.gov
Kent Meyer, Kent.Meyer@seattle.gov
Roger Wynne, Roger.Wynne@seattle.gov
Brian Maxey, Brian.Maxey@seattle.gov
Counsel for Respondent

